      Department of Homeland Security




              The Office of Financial Management’s
                 Management Letter for FY 2012
            DHS Consolidated Financial Statements Audit




OIG-13-70                                           April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                         APR 5 2013 
 
MEMORANDUM FOR:	             Larry Bedker 
                             Director 
                             Office of Financial Management 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                     The Office of Financial Management’s Management Letter 
                              for FY 2012 DHS Consolidated Financial Statements Audit 
                               
Attached for your information is our final report, The Office of Financial Management’s 
Management Letter for FY 2012 DHS Consolidated Financial Statements Audit.  This 
report contains observations related to internal control deficiencies that were not 
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial 
Statements and Internal Control over Financial Reporting.  Internal control deficiencies 
that are considered significant deficiencies were reported, as required, in the 
Independent Auditors’ Report, dated November 14, 2012, which was included in the  
FY 2012 DHS Annual Financial Report.  We do not require management’s response to 
the recommendations.   
 
The independent public accounting firm KPMG LLP conducted the audit of DHS’  
FY 2012 financial statements and is responsible for the attached management letter 
dated March 12, 2013, and conclusions expressed in it.  We do not express opinions on 
DHS’ financial statements or internal control, nor do we provide conclusions on 
compliance with laws and regulations.   
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
                               
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Office of Financial Management
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.

Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.

The Office of Financial Management (OFM) is part of DHS. We noted certain matters, related to OFM,
that are summarized in the Table of Financial Management Comments on the following pages, involving
internal control and other operational matters that are less severe than a material weakness or a significant
deficiency, and consequently are reported separately to the Office of Inspector General (OIG) and OFM
management in this letter. These comments and recommendations, all of which have been discussed with
the appropriate members of management, are intended to improve internal control or result in other
operating efficiencies. The disposition of each internal control deficiency identified during our FY 2012
audit—as either reported in our Independent Auditors’ Report, or herein—is presented in Appendix A. The
status of internal control deficiencies identified during our FY 2011 audit is presented in Appendix B.

We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and OFM’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.

Very truly yours,




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                 Department of Homeland Security
                             Table of Financial Management Comments
                                        September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                        Page

FMC 12-01    Interim Contingent Legal Liabilities Review                                     2
FMC 12-02    Preparation and Review of the Special-Purpose Financial Statements and Notes    2

APPENDIX

 Appendix    Subject                                                                        Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and      4
             Recommendation (NFRs)
    B        Status of Prior Year NFRs                                                       5




                                                   1

                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2012


FMC 12-01 – Interim Contingent Legal Liabilities Review (NFR No. CONS 12-02)

       As a result of our testwork and review of the FY 2012 interim contingent legal liability
       management schedule, case templates and component disclosure statements, we noted the
       following:
       •	 Four instances where the information included on the management schedule and case
           templates did not agree.
       •	 One instance where the materiality threshold for a legal disclosure statement did not match
           the legal materiality for the component.

       Recommendation:
       We recommend that DHS Financial Management continue to make improvements in executing
       existing controls related to the legal liability process.

FMC 12-02 – Preparation and Review of the Special-Purpose Financial Statements and Notes (NFR
No. CONS 12-04)

       During our audit of the closing package, we identified the following errors, related to the
       Government-wide Financial Report System (GFRS) Financial Report (FR) Note Reports and
       Trading Partner Summary Note:
       •	 GF006 – Note 06 – PP&E – Cost of PP&E for each category section – the amount listed in
          Line 3 – CIP was overstated by $99 million and the amount listed in Line 5 – IUS was
          understated by $99 million.
       •	 GF006 – Note 06 – PP&E – Intra-governmental Capitalized acquisition amounts section – the
          amount listed in Line 1 – GSA was overstated by $46 million and the amount listed in Line 6
          – All other departments was overstated by $145 million, resulting in a $191 million
          overstatement.
       •	 GF006 – Note 06 – PP&E – for the prior year PP&E column, the amount listed in Line 1 –
          PP&E – balance beginning of year was overstated, the amount in Line 2 – Prior-period
          adjustments (not restated) was understated by $153 million, the amount in Line 3 –
          Capitalized acquisition from the public was understated by $234 million, the amount in Line
          4 – Capitalized acquisitions from Government agencies was overstated by $149 million, and
          the amount on Line 6 – Deletions from the Balance Sheet was understated by $116 million,
          resulting in an understatement of $351 million.
       •	 GF006 – Note 06 – PP&E – for the prior year Accum. Depr. Column, the amount listed in
          Line 1 – PP&E – balance beginning of year was overstated by $2 million, the amount listed
          in Line 2 – Prior-period adjustments (not restated) was understated by $20 million, and the
          amount listed in Line 6 – Deletions from the Balance Sheet was understated by $18 million,
          resulting in an understatement of $36 million.
       •	 GF006 – Note 18 – Contingencies (SFFAS Nos. 5 and 12) – Civil Litigation, Claims and
          Assessments section – the amount in Line 2 – Reasonably Possible for current year Estimated
          Range (High end) was understated by $78 million, the amount in Line 1 – Probable for
          current year Claim amount (Unable to determine loss) was overstated by $11 million, and the
          amount in Line 2 – Reasonably Possible for current year Claim amount (Unable to determine
          loss) was understated by $9 million.
       •	 GF006 – Note 26 – Heritage Assets – Text data section – the narrative data in Line 3 was not
          updated for FY 2012.



                                                  2

                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2012


•	 The Coast Guard does not have properly designed, implemented, and effective policies,
   procedures, processes, and controls surrounding its financial reporting process to ascertain
   that intra-governmental activities and balances are identified and coded to the correct trading
   partner. Additionally, differences, especially with agencies outside DHS, are not consistently
   investigated and resolved in a timely manner in coordination with the Department’s OFM.

Recommendations:
We recommend that DHS:
•	 Conduct a comprehensive review of the current GFRS FR note preparation and review
   process and identify additional areas for automation and streamlining and document each FR
   note’s process in detail to show more data sources.
•	 Enhance the quality control process of component-provided data (manual notes and other text
   explanations) prior to consolidation and input into GFRS.




                                            3

                                                                                                             Appendix A
                                      Department of Homeland Security
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                  IAR                FMC
NFR No.       Description                                                                  MW     SD        NC        No.
              Departmental Standards of Conduct and Procedural Guidance for
12-01                                                                                              F
              Financial Disclosure Report Filing
12-02         Interim Contingent Legal Liabilities Review                                                            12-01
              Deficiencies in the public and confidential financial disclosure reporting
12-03                                                                                              F
              process
              Preparation and Review of the Special-Purpose Financial Statements and
12-04                                                                                                                12-02
              Notes
1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                               4

                                                                                                                   Appendix B
                                           Department of Homeland Security
                                              Status of Prior Year NFRs
                                                 September 30, 2012


                                                                                                  Disposition1
                                                                                                              Repeat
    NFR No.   Description                                                                         Closed2
                                                                                                              (2011 NFR No.)
              Departmental Standards of Conduct and Procedural Guidance for Financial
    11-01                                                                                                     CONS 12-01
              Disclosure Report Filing
    11-02     Audited Financial Statements                                                            X
    11-03     Untimely Filing and Review of SF-278 Financial Disclosure Reports                               CONS 12-03
              Non-Compliance with OMB Circular A-136 & Government Performance and
    11-04                                                                                             X
              Results Act
    11-05     Preparation and Review of the Special-Purpose Financial Statements and Notes                    CONS 12-04
    11-06     Findings Related to the Disbursement Process                                          Note 1


1
 KPMG was engaged to perform an audit over the DHS balance sheet and the related statements of net cost, changes in net
position and custodial activity, and combined statement of budgetary resources for the year then ended. In addition, we were
engaged to follow up on the status of all active NFRs that supported significant deficiencies reported in our FY 2011 Independent
Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.

Note 1: Due to the expanded scoped in the FY 2012 audit, this finding was addressed at the component level.




                                                                5

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Financial Management

   Chief Financial Officer
   Director, Office of Financial Management
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 -6-                        OIG-13-70
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
